            AUDIT REPORT 

       IhTFORMATION SYSTEM CONTROLS 

AT THE NATIONAL MUSEUM OF NATURAL HISTORY 


               Number A-04-03 


               September 9,2004 

                                       SUMMARY 


The Office of the Inspector General audited information system controls at the National
Museum of Natural History (NMNH). The purpose of the audit was to evaluate NMNH
information system controls for system access, network security, and operating system
configuration. We excluded from this report our assessments of NMNH UNIX and web
server applications. These assessments will be reported separately when completed as a
follow-on report.

The following points were considerations throughout our audit: Adequate security of
information and the systems that process it is a fundamental management responsibility.
Of necessity, management must strike a reasonable balance between information
technology security and operational capability because some controls impede operations.
It is Smithsonian policy, as well as good business practice, that controls be established to
maintain accountability for the custody and use of resources and to provide reasonable
assurance that assets are safeguarded against loss or unauthorized use.

NMNH did have some system security controls in place regarding system backup and
network intrusion detection. However, we determined that NMNH network security,
operating system configurations, and system access safeguards were inadequate, and that
the risk to system access and data integrity was high. During our audit, NMNH
management made some system account reviews and changes and began reviewing
configuration deficiencies identified during the audit.

We made recommendations to the Director, NMNH and to the Chief Information
Officer. We recommended that the Director, NMNH, ensure that staff update NMNH
system resources server inventory documentation; address and correct identified network
security holes and remove unnecessary open network ports, servers, and user accounts on
NMNH servers and workstations; reaffirm the necessity to comply with the Smithsonian
Institution password policy; review operating system configurations in Windows servers
to ensure that they are securely configured to Office of the Chief Information Officer
(OCIO) and industry standards and install missing patches and updates; establish a
process to ensure regular oversight of the current NMNH practice permitting NMNH
units to establish and administer their own servers, or formalize a reassignment of these
responsibilities to a unit that can ensure that these systems are securely configured and
administered. We also recommended that the Chief Information Officer clarify the
necessity of when and where to place web site links to the Smithsonian privacy policy and
copyright restrictions and consider establishing a policy requiring a more secure method
of file sharing.

Management agreed with the recommendations and planned actions are responsive to the
recommendations.
                                                  TABLE OF CONTENTS 


                                                                                                                                                   Pane 

1. Introduction .................................................................................................................................... 1 


        A. Purpose ..................................................................................................................................   1


        B. Scope and Methodology ........................................................................................................ 1 


        C. Background .............................................................................................................................     1


2. Results of Audit ................................................................................................................................    2


Appendix A. Glossary ........................................................................................................................ 12 


Appendix B. Policies and Industry Standards .................................................................................. 14 


Appendix C. Management Comments ............................................................................................. 17 



                                       ABBREVIATIONS AND ACRONYMS

ADP                   Automated Data Processing
FAT                   File Allocation Table
FTP                   File Transfer Protocol
HTTP                  Hypertext Transfer Protocol
IT                    Information Technology
NIST                  National Institute of Standards and Technology
NMNH                  National Museum of Natural History
NTFS                  New Technology File System
OCIO                  Office of the Chief Information Officer
SANS                  SysAdmin, Audit, Network, Security Institute
SI                    Smithsonian Institution
SSH                   Secure Shell
SNMP                  Simple Network Management Protocol
                                   INTRODUCTION

A. Purpose

The purpose of the audit was to evaluate NMNH information system controls for system
access, network security, and operating system configuration.

B. Scope and Methodolop

The audit was conducted from November 14,2003, to August 5,2004, in accordance with
generally accepted government auditing standards. We excluded from this report our
assessmentsof NMNH UNIX and web server applications. These assessments will be
reported separatelywhen completed as a follow-on report.

The audit methodology consisted of the following:

       Identifying and reviewing applicable Institution policies and procedures related to
       general system controls, computer system security, and integrity of computer
       resources.
       Comparing NMNH system security settings with industry and Institution
       standards.
       Evaluating controls meant to safeguard and protect networks.
       Assessing the adequacy of controls meant to prevent and detect unauthorized
       activities.
       Utilizing guidance issued by the Smithsonian Office of the Chief Information
       Officer, National Institute of Standards and Technology (NIST),National Security
       Agency, and Microsoft Corporation relating to system security configuration.

Our review also included interviews with NMNH technology staff, through which we
gained an understanding of the practices employed concerning system configuration,
network security, and system access.

C. Background

The NMNH opened to the public in March 1910 as the National Museum. NMNH is
dedicated to maintaining and preserving the world's most extensive collection of natural
history specimens and human artifacts. It also fosters scientificresearch as well as
educational programs and exhibitions that present the work of its scientists and curators
to the public.

NMNH Information Technology (IT) administration is composed of two formal units:
Automated Data Processing (ADP) and Informatics. We were able to identify
approximately 2,800 system resources composed of servers, workstations, printers, and
network devices connected to the NMNH network.
                                       RESULTS OF AUDIT

NMNH Information Systems

NMNH systems security can be strengthened to prevent unauthorized access.
Specifically, opportunities exist to strengthen controls over network access and server
operating systems security configurations and settings.' This condition exists because of
partial uncoordinated information technology administration across NMNH as well as a
lack of oversight and inconsistent compliance with OCIO system administration policies
and guidance. Also, according to ADP and Informatics staff, there has been a shortage of
staff and insufficient training to effectively manage the complex and diverse information
technology needs. As a result, NMNH information systems are vulnerable to
unauthorized access and the integrity of its data could be compromised.

Results

We performed internal and external network security reviews of NMNH servers and
NMNH client workstations as part of access control testing2 In addition, we assessed the
server operating systems against industry guidance and configuration standards.' From
these assessments, we determined that configurations should be modified to meet
minimum industry-recommended security configuration standards.

Network Access
Externally and internally, we were successful in identifyrng some open ports and services
that are vulnerable. We were provided with an inventory listing of servers by the NMNH
ADP department that identified, for each server listed, the Internet protocol address,
resource name, operating system, and unit administration. Comparison of network scans
to the server inventory list revealed the listing was incomplete in regards to Internet
protocol addresses and operating systems. However, the acting ADP manager stated there
have been recent OCIO network address changes that were not reflected in the inventory
list. Also, the ADP manager stated he was working on updating the server inventory
listing and needed to coordinate with other unit administrators to update the
information.

Through our scans and discussions with ADP and the NMNH Informatics webmaster we
discovered other servers that were not included in the NMNH server inventory.
Moreover, some NMNH server names did not match the documented Internet protocol
address. In addition, our network scans discovered other NNINH servers not included in
the server inventory or administered by NMNH ADP or Informatics.

We performed scans of 53 NMNH server^.^ Analysis of the 53 internally scanned servers
revealed 53 security holes, 37 of which, or 70 percent, were related to the SANS Institute

' See Appendix A, Glossary of technical definitions for an explanation of these and other terms used in this
report.
  Internal networks are systems accessible within the SI network. External networks are Internet accessible.
  Appendix B contains a summary of policies and industry security standards used during this audit.
  The 53 NMNH servers consist of 18 Windows, 16 UNIX based, 15 Netware operating system servers, and 4
unconfirmed operating systems. We did not discover vulnerabilities with the Netware servers and
concentrated on the Windows servers. Reviews of the NMNH UNIX operating system and Apache web
server applications will be addressed in a separate follow-on report.
Top 10 Microsoft Windows ~ulnerabilities.~     The major ports and services include
NetBIOS and Anonymous logon, Simple Network Management Protocol (SNMP), Secure
Shell (SSH), HTTP (Hypertext Transfer Protocol) and FTP (File Transfer ~ r o t o c o l ) .In
                                                                                           ~
performing our review, we did not provide notice of when our network testing was to be
performed. However, on numerous occasions NMNH ADP identified our internal
network security testing as suspicious activity, which showed some controls are in place to
identify suspicious activity within NMNH.

The following chart shows the NMNH server security holes discovered compared to the
SANS Top 10 Windows Vulnerabilities. The NetBIOS service, for example, is recognized
as a common Windows operating system weakness. Through our testing, we were able to
identify 15 of 18 Windows servers which had enabled the NetBIOS protocol. According
to NIST 800-43, enabling default Microsoft Windows NetBIOS over certain networks
permits the server storage drives to be easily shared and network accessible.
Sharing drives across networks
is not recommended, unless                                                26 NMNH Sewers
necessary, because it can                  Compared     to SANS Top 10 Windows Vulnerabilties
permit unauthorized and
undetected access to
information stored on drives.                                                       30% (16) Other
In addition, according to the                                                       Security Holes
SANS, NetBIOS and Simple
Network Management
Protocol are two of the top 20
most critical Internet security           70% (37) SANS
                                          Top 10 SecurityJ
                                                            /
vulnerabilities because they                   Holes
disclose information such as            L


server services, account names, and passwords to unauthorized users.

We were successful in gaining access by exploiting the NetBIOS vulnerability for 13 of the
18 NMNH Windows servers and numerous workstations. Of the 13 Windows servers, we
were able to obtain numerous system administrative password accounts. Once we had
obtained these accounts, we were able, without authorization, to gain access to the server
files and directories. Further analyses of the password files show that some of the
administrative passwords were not in compliance with Institution complexity policies,
which require the passwords to be at least eight characters and contain a combination of
alphanumeric characters and special characters.

We identified vulnerabilities within the NMNH workstations. We performed scans of 13
class "C" networks and identified 711 security holes that were distributed among 39
different services and open ports.7 Analyses of the workstations compared to the SANS
vulnerabilities identified NetBIOS Network Shares, anonymous logon null session, SSH,
SNMP, HTTP, FTP vulnerabilities, remote registry access, and remote procedure calls.'


  The SANS (SysAdmin, Audit, Network, Security Institute) was established in 1989 as a cooperative system
security research and education organization. The SANS Top 20 vulnerability list for Windows and
UndLinux includes the 10 most commonly exploited vulnerable services in Windows and the 10 most
commonly exploited vulnerable services in UNIX and Linux.
  See Appendix A. Glossary
' Class "C" networks consisted of 254 addresses each, for a total of 3,302.
  See Appendix A. Glossary.
In addition, there was no SI banner warning on most of the computers that had FTP,
telnet, and SSH ports and services a~ailable.~

The following chart shows the comparison of the security holes to the SANS Top 10
Windows vulnerabilities. Workstation access control testing permitted the gathering of
                                                      password files. Further analyses
                              DiscoveredAmong         showed that the passwords were not
         PC's Compared to SANS Top 10 Windows         in compliance with SI policy.
                         Vulnerabilities
                                                      Passwords were either blank or the
                                         19% (135)    same as the user account. Using
                                       Other Securitv administrative accounts, we were
                                           Holes      able to establish a network path
                                                      directly to some workstations. We
                                                      discovered 19 additional web
                                                      servers upon further analysis of the
             Sans Top 10                              workstation   scans that showed
            Security Holes                            HTTP or port 80 open - a common
L                                                     port used for web servers - that
were not included in the NMhTH server inventory lists. For example, the following web
servers were discovered that were not on the NMNH inventory:

        MSCWEB.si.edu and MSCWEB2.si.edu are intranet web portals for the Museum
        Support Center.
        WRBU.si.edu is used by Walter Reed Biosystematics Unit as an external web
        server residing within the SI and NMNH internal network and contained five
        security holes that include NetBIOS, SSH, HTTP, and two other services.
        VOOM.si.edu is an external web server residing within the SI and NMNH internal
        network and had two security holes as well as FTP vulnerability. The FTP
        vulnerabilities permitted our tests to gain access to the server and place files on it
        externally and internally.
        LMS.si.edu is an internal webserver used by the laboratory of analyticalbiology
        and had five security holes, including FTP, SSH, HTTP, and two others.
        SEMANALYSIS.si.eduis an internal webserver that contained two security holes.
        MNMHN-MSPDOC7.si.edu contained one security hole.

We also specifically tested whether NMNH computers (servers and workstations) were
vulnerable to the following high-risk Microsoft worm vulnerabilities:remote procedure
call, local security authority subsystem service, and SQL (Structured Query Language)
Server ~esolution.'~   From these tests we identified the following:
         1 server vulnerable to the remote procedure call worm;
         364 workstations vulnerable to the RPC (remote procedure call) worm;
         72 workstations vulnerable to the LSASS (localsecurity authority subsystem
         service) worm;
         1workstation vulnerable to the SQL Server Resolution worm.



  See Appendix A. Glossary.
'"ee Appendix A. Glossary.
Web Site Privacy Policy Posting

Through our port scans we identified the common HTTP port 80 used for Internet web
servers. We browsed to these computers and identified them as being NMWH websites.
Some of these NMNH websites are accessiblepublicly through the Internet. Our review
of these websites found that there was no privacy policy or copyright statement, they
contained links to non-SI websites, and these servers were not located within the
protected area of the SI network for publicly accessible web servers. Also, discussions
with NMNH IT staff revealed that it was unclear whether a link to the SI privacy policy is
required on each web page and if there is an SI design standard that should be used by the
museums. It is common industry practice as well as an Office of Management and
Budget recommendation that federal websites have a clearly posted privacy policy.

Voom.si.edu, for example, is publicly available through the Internet and does not have the
SI privacy statement, offers images with no copyright restrictions, and contains links to
non-SI websites. We were able to gain administrative access to this website externally
through the Internet using FTP and thereby bypass the SI firewall and compromise the SI
internal network. Three other websites that are publicly available (ravenel.si.edu,
goode.si.edu, and rathbun.si.edu) also do not contain the SI privacy statement.

Server Operating Systems

We compared server operating system configurations and settings against Smithsonian
and industry standards and guidance. We sampled 9 of the 18Windows servers for
comparison against SI and industry hardening guidelines (guidelines for securing
operating systems and applications). From our analyses we determined the following:
       Securitypatches and hotfixes were not up to date for operating systems, Internet
       Explorer, Microsoft Structured Query Language, Microsoft Data Access
       Components and Remote Procedure Control. However, for some servers that had
       installed the Internet Information Services application, this application was up to
       date with patches and hotfixes.
       Directory Access Control is a Windows file and directory auditing feature. These
       permissions were not optimally set to restrict server file and directory access.
       Also, we identified one server that was formatted as FAT (file allocation table) and
       not the recommended NTFS (new technology file system). NTFS offers extensive
       security permissions and auditing features while FAT does not.
       Protective registry settings were not enabled. Establishing strict permissions for
       registry settings prevents unauthorized users from altering or modifying the
       operating system and applications.
       Internet Information Serviceswere not properly configured. Although the servers
       that contained the Internet Information Services web server application were up
       to date with atches and hotfures, additional application security configurations
       were not set.
                     F:
       There were numerous user accounts with system administrative privileges whose
       accounts have not been used within 90 days and whose passwords were older than

" The Internet Information Service applications were identified as vulnerable to arbitrary command
execution. The command can be used to call arbitrary commands to the web server through a user's web
browser. For example, users could use their browsers to execute commands on the web server such as
erasing the server's hard drive, thereby bringing down the web server.
               the 90-day SI requirement. Upon discovery of this, ADP began to review and
               remove unnecessary accounts.

       The following table summarizes our assessment of the NMNH Windows operating
       system configurations we reviewed.




Percentages
          Passed and NA I 29% 1 51% 1 31% 1 29% 1 27%                   / 26% 1 24% 1 17% 1 34% 1 24% 1 

                   Failed 71% 1 49% 1 69% 1 71% 73%
                              1                                 1       ) 74% 1 76% / 83% 1 66% 1 76% 

Tests Failed by Risk Levels
                High (b) ( 9  7     8     9     9                       ( 10     /   10   ( 11     7        1   10
              Medium (cl 1 12 7     1 11 1 12 1 13                      1 13     1 14     1   15   1   10   1 14
                 Low(dj28                   29    2                       29         29       12       29       2 9 -
                   Total 49     34    48    50    51                      52         53       58       46       53
The nine servers were 1. MNHSYNCSORT, 2. MNHWEBSHIELD, 3. MNHWEBMAIL, 4. ADPWEB,
 5. NHBVMASTER, 6. NHADMIN, 7. NHMIS, 8. NHBACK, and 9. NHDATA.
a. Non-applicable tests were not applicable to the type of server being reviewed.
b. High Risk is high enough to cause a business disruption if exploited.
c. Medium Risk in conjunction with another event could cause a business disruption if exploited.
1
       NMhTH information systems are large, highly diverse, and have numerous SI tenants as 

       well as non-SI tenants with system resources residing on the network. NMNH system 

       administration is spread among different units who have been permitted to establish 

       various systems to support their unit or organizational needs. Although not formalized 

       or overseen, according to ADP staff, these units are responsible for system administration 

       and for complying with SI and OCIO system guidance and requirements. We believe that 

       NMNH system security weaknesses result from partial uncoordinated information 

       technology administration across NMNH as well as from inconsistent compliance with 

       OCIO system administration policies and guidance. Also, according to ADP and 

       Informatics staff, there has been a shortage of staff and insufficient training to effectively 

       manage the complex and diverse information technology needs. NMNH has recognized 

       the need to better coordinate its IT administration and according to the NMNH IT 

       Director, plans are being developed to merge some NMNH IT units into one central unit. 


       According to industry standards, the weaknesses we identified at NMhTH can lead to 

       inadequate access controls that diminish the reliability of computerized data and increase 

       the risk of destruction or inappropriate disclosure of data. NMNH information systems 

       resources are vulnerable to network and server business disruptions and potential 

       compromises to data integrity. 

Conclusion

Based upon our system configuration and network analyses, we believe that NMNH can
improve system security by introducing an assessment process into its information
technology administration. Implementing security assessments and performing periodic
reviews can identify risks, thereby limiting vulnerabilities and preventing system
compromises.

Recommendations

We made eleven recommendations to the Director, National Museum of Natural History:

    1. 	 We recommended that the Director, National Museum of Natural History, ensure
         that his staff review the identified open ports and available services and close those
         that are deemed unnecessary.

Management Comments

Concur. NMNH is currently reviewing all NMNH controlled servers for compliance with
OCIO policies and will create a report of the services and ports currently open on each
server, to whom, and why. In addition, as part of the migration to at firewall system,
NMNH will identify all open ports and services. During the migration period, NNINH
will review the open ports and services and determine if any are no longer required and
document the business requirement for the ports left open. Target completion date:
December 31,2004.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.

   2. 	 We recommended that the Director, National Museum of Natural History, ensure
        that his staff update the server inventory documentation to ensure that all NMNH
        system resources are accurately accounted for and up-to-date.

Management Comments

Concur. NMNH has begun work to update the server inventory documentation. Target
completion date: December 3 1,2004.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.

    3. 	 We recommended that the Director, National Museum of Natural History, ensure
        that his staff address and correct the server and workstation security holes
        identified.
Management Comments

Concur. Correcting the high risk server and workstation security weaknesses is a priority
for NMNH. Since this work is labor intensive, NMNH will first draft a plan by December
31" that identifies the most cost-effective methodology to mitigate the weaknesses and the
resources needed to complete the task Target completion date: May 1,2005.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.

   4. 	 We recommended that the Director, National Museum of Natural History, ensure
       that his staff reaffirm the necessity to comply with the SI password policy across
       NMNH and non-SI tenants.

Management Comments

Concur. NMNH is committed to achieving compliance with the SI password policy
contained in SD 931. NMNH will send an e-mail to all NMNH employees and those
from other agencies working in the museum reiterating the SI password policy and
commit to reviewing passwords on a quarterly basis consistent with the guidance
contained in the SI IT Security Controls Manual. Target completion date: November 30,
2004.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.

    5. 	 We recommended that the Director, National Museum of Natural History, ensure
       that his staff review and remove unnecessary accounts on all servers and
       workstations.

Management Comments

Concur. As a first step, NMNH will review the information provided by the Office of the
Inspector General and remove all unnecessary server accounts and revise the passwords to
comply with SI password policy for valid server accounts. NMNH will identify
unnecessary desktop workstation user accounts and remove them, consistent with the
guidance contained in the Smithsonian IT Security Controls Manual. Target completion
date: March 3 1,2005.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.

    6. 	 We recommended that the Director, National Museum of Natural History, ensure
       that his staff review the servers and workstations to ensure that all patches and
       updates are installed for the operating systems and applications, beginning with
       those machines shown to be vulnerable to the high risk Microsoft worm
       vulnerabilities.

Management Comments

Concur. NMhTH is developing a plan for administering Windows servers to include
ensuring that upgrades and patches are installed in a timely manner. The high risk
vulnerabilities identified in the Inspector General's report will be mitigated by December
3 1,2004. Other vulnerabilities will be mitigated as resources allow. Target completion
date: December 3 1.2004.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.


   7. 	 We recommended that the Director, National Museum of Natural History, ensure
       that his staff review publicly accessible NMNH websites for their necessity and
       consider developing a common design standard.
Management Comments

Concur. NMNH has established a 3-phased project to update the NMNH web pages.
The first phase is to implement a common design for the top pages consistent with SI
guidance. NMNH is seeking private funding to support the web page redesign. NMNH
will also establish a web content steering committee to address web governance and
prioritize further investments in web technology. Target completion date: This is
expected to be an on-going effort.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation. When the three phases have been implemented and we have been
notified, we will consider closing the recommendation.

    8. 	 We recommended that the Director, National Museum of Natural History, ensure
       that his staff relocate publicly accessible web servers off the NMNH and SI
       intranet to a secure network location.
Management Comments

Concur. Currently the servers that support publicly accessible web sites are supported by
either NMNH IT, OCIO, or the departments. The NMNH goal is to create a more secure
environment for web hosting, while still giving the departments the flexibility and
freedom to create their own content and handle their own development work. To allow
for maximum flexibility with the necessary security, NMNH IT will work with OCIO on a
plan to relocate the public web sites to OCIO servers using Interwoven's OpenDeploy
(website content distribution product). The Botany Department will begin a pilot in
September that should enable departments to continue to develop web sites locally, but to
push their content to a more secure location for public hosting. Target completion date:
June 30,2005.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.

   9. 	 We recommended that the Director, National Museum of Natural History, ensure
       that his staff review operating system configurations in Windows servers to ensure
       they are securely configured to OCIO and industry standards.

Mana~ementComments

Concur. In conjunction with Recommendation 6, NMNH will review Windows-based
server and take steps to securely configure the servers to OCIO and industry standards.
Target completion date: March 30,2005.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.

    10. We recommended that the Director, National Museum of Natural History, ensure
        that his staff establish a process to ensure regular oversight of the current NMNH
        practice permitting NMNH units to establish and administer their own servers, or
        formalize a reassignment of these responsibilities to a unit that can ensure that
        these systems are securely configured and administered.

Management Comments

Concur. NMNH will review departmental servers and determine whether the servers
should be included in the OCIO application server consolidation project, be administered
by the NMNH IT staff, or remain under the control of the individual departments with
increased oversight. NMNH will ensure compliance with the IT Security Controls
Manual whichever approach is adopted. Target completion date: March 3 1,2005.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.

    11. We recommended that the Director, National Museum of Natural History, ensure
        that his staff review the IT staffing needs to ensure that staff levels and training
        needs exist to appropriately administer NMNH system resources.

Management Comments

Concur. NMNH has already begun this review. As a result of this review, NMNH will
restructure the organizations that provide IT services. The ADP and Informatics groups
are in the process of merging. Other realignments are under consideration. A review of
staffing needs and recommendations on staffing decisions will be provided to the Director
and NMNH Executive Staff in September. Target completion date: September 30,2004.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendation.

We made two recommendations to the Chief Information Officer:

    1. 	 We recommended fhat the Chief Information Officer clarify the necessity of when
       and where to place links to the SI privacy policy and copyright restrictions posted
       on SI publicly accessible unit websites.



Concur. OCIO has drafted a technical note that establishes the requirement and
procedures for including links to the standard Smithsonian Institution copyright notice,
privacy notice, and the applicable top Smithsonian web page.

Office of the Inspector General Response

The Chief Information Officer released IT-950-TN01, Web Copyright and Privacy Notices
prior to the issuance of this report. This action was responsive to the recommendation.
Therefore, this recommendation is closed.

    2. 	 We recommended that the Chief Information Officer review the use of the file
         transfer protocol (FTP) and consider establishing a policy requiring a more secure
         method of file sharing.

Management Comments

Concur. The Smithsonian Computer Security Manager will convene a technical working
group to review alternative ways to securely transfer files and implement recommended
alternative(s). Target completion date: January 30,2005.

Office of the Insuector General Response

We believe the Chief Information Officer's planned actions, if implemented, are
responsive to the recommendation.
Appendix A. Glossary

Anonymous Login Null Session. Anonymous Login Null Session is a network access
connection using a blank user name and password.

Application. A complete, self-contained program that performs a specific function
directly for the user. This is in contrast to system software such as the operating system
which exists to support application programs.

Computer Worm. A computer worm is a piece of computer code that is loaded onto a
computer for malicious purposes and often transmits itself from one host to another
across a network. Typically, worms and viruses engulf a computer's memory until the
system halts.

Directory. A computer system used to organize files on the basis of specific information.

FTP. FTP (File Transfer Protocol) is used extensively as a protocol to transfer files from
one computer to another.

Hotfixes. Hotfixes and security patches are intended for enterprise implementations and
provide an extra level of security for mission-critical software systems. Specifically,
security patches eliminate vulnerabilities by mitigating recognized exploits.

HTTP. HTTP (Hypertext Transfer Protocol) is the underlying protocol used by the
World Wide Web. HTTP defines how messages are formatted and transmitted, and what
actions web servers and browsers should take in response to various commands.

NetBIOS. NetBIOS is part of the Windows networking technology that facilitates the
sharing of files and computer resources across a network.

NetBIOS Network Shares. NetBIOS Network Shares are a feature commonly provided on
computers running Microsoft Windows that allows the sharing of files or folders across a
network with other computers.

Operating System. The software which handles the interface to hardware, schedules tasks,
allocates storage, and presents a default interface to the user when no application program
is running.

Remote Registry Access (RAC). Remote Registry Access is the ability to remotely access the
registry settings that are used to manage software, device configurations, and user
settings.

Remote Procedure Calls (RPC). Remote Procedure Call is the ability for one computer to
access another computer and execute arbitrary code on that computer.

Security Hole. A security hole is a security weakness that permits a computer intruder to
get access to files or walk through the file system. A security warning is a weakness that
can be exploited in conjunction with a vulnerability.
Server. A computer or device which provides some service for other computers connected
to it via a network. For example, a file server is a computer and storage device dedicated
to storing files and sharing those files over a network. A print server is a computer or
device that manages one or more printers, while a network server is a computer that
manages network traffic. A database server is a computer system that processes database
queries.

Simple Network Management Protocol. Simple Network Management Protocol (SNMP) is
used extensively to remotely manage and configure devices such as printers, network
routers, and to monitor network services.

SSH. SSH or Secure Shell is a popular service for securing system logins, command
execution, and file transfers across networks.

System Administrator. An individual responsible for maintaining a computer system,
including a local-area network. Typical duties include: adding and configuring new
workstations, setting up user accounts, installing system-wide software, and performing
procedures to prevent the spread of viruses.

Protocol. When data is being transmitted between two or more devices, something needs
to govern the controls that keep this data intact. A protocol is a formal description of
message formats and the rules two computers must follow to exchange those messages.
Protocols can describe low-level details of machine-to-machine interfaces or high-level
exchanges between application programs.

Warning banner. A warning banner is a screen with text that gives notice to individuals
who are accessing a computer.

Web server. A web server is an application running on a computer which sends out web
pages in response to requests from remote network or Internet users.
Appendix B. Policies and Industry Standards

We evaluated NMNH system security from November 14,2003, through August 5,2004.
We used Smithsonian Directives as well as industry guidance and standards from the
NIST, Government Accountability Office (formerly the General Accounting Office),
National SecurityAgency, and Microsoft Corporation

Smithsonian Directive 115, Management Controls, revised July 23, 1996,lists standards
that apply to all Institution units. The directive requires managers to take systematic and
proactive steps to develop and implement appropriate, cost-effective management
controls. These controls should provide reasonable assurance that assets are safeguarded
against waste, loss, unauthorized use, and misappropriation.

Smithsonian Directive 931, Use of Computers e+ Networks, August 5,2002, provides
Institution policy on computer safeguards to protect Smithsonian equipment and data.
Users are required to use safeguards including: having a password with at least eight
alphanumeric and special characters. Passwords must not be found in a dictionary, easily
guessed, or left in writing in the user's office. In addition, passwords should be changed
every ninety days and not reused.
Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN02, Auditing e+ Logging Procedures, September 8,2003, describes the configuration,
settings, size and frequency of log review for all auditable systems. This technical note
covers all network devices (e.g., routers, switches),network servers, file servers, database
servers, application servers, firewalls and intrusion detection systems. The objective is to
establish a standard frequency for monitoring audit logs.

Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN04, Disabling and Deleting Dormant Accounts, August 27,2003, establishes procedures
to be used to monitor and disable network accounts at the Smithsonian Institution which
have not been used within the last thirty days, and to delete accounts that have been
dormant for 180 days.

Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN08, Implementing Vendor Software Patches/Fixes, August 27,2003, establishes that
system administrators or designated technical staff are required to apply security patches
or fuces in a timely manner. Patches must be installed on production within seven days of
successful completion of testing.

Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN10, Minimizing Access to Production Software and Data, August 27, 2003, establishes
procedures by which production data and software can be safeguarded from
unauthorized access, modification, and deletion.
Appendix B. Policies and Industry Standards (Continued)

Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN12, Password Policy Compliance Testing, August 27,2003, establishes procedures to be
used to verify compliance with established password usage policies (SD 931, Use of
Computers e+ Networks) at the Smithsonian Institution. The goal is to establish a system
of checks and reports that records and monitors the enforcement of password usage.

Smithsonian Institution Office of the Chief Information Officer Technical Note, Windows
2000 Server Baseline Configuration /Build Notes Application Server Edition Version 1.1,
November 4, 2003, provides a setup and configuration guideline and baseline for the
standalone Windows 2000 application servers used in Smithsonian Institution web
infrastructure. The purpose of this guideline is to serve as a step-by-step guide and check-
list for building a well configured and secure Windows 2000 Server with associated
infrastructure applications.

General Accounting Office (now the Government Accountability Office), Financial
Information Systems Control Audit Manual, January 1999, provides guidance in evaluating
computer-related controls. The guidance describes access controls to provide reasonable
assurance that computer resources are protected against unauthorized modifications,
disclosure, loss, or impairment. Such controls include physical controls such as locking
computer rooms to limit access. Inadequate access controls diminish the reliability of
computerized data and increase the risk of destruction or inappropriate disclosure of
data.

National Security Agency, Research, Study by Trusted Systems Services, Windows N T
Security Guidelines Considerations e+ Guidelinesfor Securely Configuring Windows NT in
Multiple Environments, 1999, provides guidelines for countering known attacks on
Windows NT installations that maliciously expose or modify user data. The goal is to
make Windows NT as secure as reasonably and practically possible. Implicit in the
guidelines is the understanding that recommendations must be both effective against
certain threats and also practical. A balance is necessary between security and operations
because some controls impede operational capability.

National Security Agency, Guide to Securing Microsoft Windows 2000 File and Disk
Resources, April 19,2001, recommends that all volumes use new technology file system in
order to achieve the highest level of security. Under Windows 2000, only new technology
file system supports discretionary access control to the directories and files. New
technology file system volumes provide secure and auditable access to the files.
Therefore, any file allocation table partitions should be converted to new technology file
system.

National Security Agency, Guide to Securing Microsoft Windows NT Networks, 2001,
identifies a variety of available Windows NT 4.0 security mechanisms and describes
measures for their implementation. The guide provides step-by-step instructions on how
to utilize the operating system's built-in security features.
Appendix B. Policies and Industry Standards (Continued)

NIST Special Publication 800- 18, Guidefor Developing Security Plans for Information
Technology Systems, December 1998, states that the objective of system security planning
is to improve the protection of information technology resources. All federal systems
have some level of sensitivity and require protection as part of good management
practice. According to NIST, system security plans should document the protection of
the system.

Additionally, the completion of system security plans is a requirement of the Office of
Management and Budget Circular A-130, Management of Federal Information Resources,
Appendix 111, Security of Federal Automated Information Resources, and Public Law 100-
235, Computer Security Act of 1987. The purpose of the security plan is to provide an
overview of the security requirements of the system and describe the controls in place for
meeting those requirements. The system security plan also delineates the responsibilities
and expected behavior of all individuals who access the system.

NIST, Guidelines on Securing Public Web Sewers, Special Publication 800-44, September
2002, provides guidelines on securing both Apache and Internet Information Services web
server applications. The guidelines include installing permanent fixes (often called
patches, hot fixes, service packs, or updates), and removing or disabling unnecessary
services and applications. Ideally, a Web server should be on a dedicated, single-purpose
host. Many operating systems are configured by default to provide a wider range of
services and applications than required by a Web server; therefore, a Web administrator
should configure the operating system to remove or disable unneeded services. Some
common examples of services that should usually be disabled would include: Windows
network basic inputloutput system (NetBIOS),if not required, file transfer protocol;
telnet; simple management transfer protocol; and software development tools.

NIST special publication, Generally Accepted Principles and Practicesfor Securing
Information Technology Systems, September 1996, provides instructions,
recommendations, and considerations for government computer security. According to
this publication, security policies and procedures should be in place to protect valuable
resources, such as information, hardware, and software. The security program should
allow for periodic assessments and should ensure that personnel understand their
respective responsibilities.

Microsoft White Paper, Securing Windows NT Installation, 1997, states that the default,
out-of-the-box NT configuration is unsecured, and discusses various security issues with
respect to configuring all Windows NT operating system products.
Appendix C. Management Comments




                        Smithsonian 

                        National Museum of Natural History 





         [)are      August 25,2004
            TO 	     Tom D. Blair, Inspector General

             cc 	    Slieiia Burke, Deputy Secretary and Chief Operating Officer 

                     David Evans, Iinder Secretary for Science 

         I.M, 	      Crisiiin San~per,Directcor,National M~iseum 

                     Dennis R. Shuv, Chicf Infom~ationOfficer 


        Sobjecl 	    Response to the DraFt Report, Office ofthe Inspector General Audit A-04-03,
                     Information Spstcnl Controls at the National Museum of Natural lfistory


                         Thank you for the opportunity to cotnment on the draft audit report on the lnformation
                     System Controls at the National Museum of Natural I-Iistory. We agree with the audit
                     lindings and the report recommendations. Planned actions ;md tirnelines for co~npletiy
                     actions associated wirh each rcco~nmendationare contained in the attachment.

                       Please direct any questions you m y have regarding this response to Rnlce LYaniels,
                     OCIO Computer Security Mmagcr, at 202-633-6000 or Carol Fiertz, NMNII IT
                     Manr~gcr,at 202-633-0768
Appendix C. Management Comments (Continued)




           Recommendations to the Director, National Museum of Natural History:

           liecommendrtion 1: Kcview the identified open ports and available serviccs and closc
           those that iire deemed unnecessary.

           Comment: Coilcur. NMNH is currently reviewing all NMNFI controlled servers ibr
           compliance u-ith OCJO policies and will create arepon of the services and ports currently
           open on each server, to whom, and why. In addition, as part of the migration to the
           Checkpoint firewall system, NMNH will identify all open ports and services During the
           migration period, NMNH will review the open ports and services and detcrmiue if any
           are no longer required and document the business requirement for the ports Icf't open.

           Target Completion Date: December 3 1,2004

            Kecommendation 2: Update the server inventory documentation to ensure all NMNH
            system resources are r~ccuratelyaccounted for md up-to-date

            Commerrt: Cnncur. NMNH has begun work to update the server inventory
            documentation.
            Target Completion Date: December 3I, 2004

            Recommendation 3: Address md correct the server and work station security holes
            identified.

            Comment: Concur. Correcting the high risk server and workstation security weaknesses
            is a priority for NMNH. Since this work is tabor intcnsivc. NMNH will frst draft a plan
            by Dccember 3 1'' that identifies the most cost-effective methodology to mitigate the
            weaknesses and the resources needed to complete the task.

            Target Completion Date: May 1,2005

            Recoznmendation 4: Reaffinn the necessity to comply with the SI password policy
            across NMNI I and non-S Itenants.

            Comment: Concur. NMNlI is committed to achieving compl~ancev ~ t hthc SI password
            policy contained in SD 93 1. NMNH will send an email to all NMNH employees and
            thosc from other agencies working in the museum reiterating the SI password policy and
            commit to reviewing passwords on a quarterly basis consistent with the guidance
            contait~cdin the SI IT Sccurity Controls Manual.

            Target Completion Date: November 30,2004

            Recommendation 5: Keview and remove unnecessary accounts on all servers and
            workstations.

            Comment: <:oncur. As a rust stcp, NMNH will review the information provided by the
Appendix C. Management Comments (Continued)




          OIG and remove all unnecessary server accounts and revise the passwords to comply
          with SI password policy for valid server accounts. NMNH will identify nnnecessary
          desktop workstation user accounts and remove them, consistent with the guidance
          containcd in the Sn~ithsonianIT Security Controls Manual.
          Target Completion Date: March 3 1,2005

          Recommendation 6: Review the servers and workstations to ensure all patches and
          updates arc installed for the operating systems and applications beginning wit11 those
          machines shown to be vulnerable to the high risk Microsoft worn1 vulnerabiliti~s

          Comment: Concur. NMNH is dcveloninp       - - a plan
                                                          - for administering Windows servers to
          include ensuring that upgrades and patches we installed in a tinlelimanner. 'I'hc high
          risk vulnerabilities idcntificd in the IG rmort will be mitigated by December 31,2004.
          Other vull~crabilitieswill be mitigated as'resources allow-
           Target Completion Date: December 31,2004

          Recommendation 7: Kcvicw those publicly accessible NMNH websites for their
          necessity and consider developing a common design standard.

          Comment: Concur. NMNH has established a 3-phased project to update the NMNH
          tvcb pages. The first phase is to implement a common design for the top pages consistent
          with SI guidance. NMNH is seeking private fwding to support the web page rcdesign.
          NMNII will also establish a web content steering committee to address web governance
          and prioritize hrthcr invcstn~cntsin web technology.
           Target Completion Date: This is expected to be an on-going effort.

           Recon~mendation8: Relocate publicly accessible web servcrs off the NMNIT and SI
           intranct to a secure nehvork location.

           Comment: Conc~u.Currently the servers that support publicly accessible web sites are
           supported by cither NbfNIT-IT, OC10, or the departments. The NMNH goal is to create
           a more secure enviro~mlentfor web hosting, while still giving t11c departments the
           flexibility and freedom to crcate their own content and hndle their own development
           work. 'To allow for maximum flexibility with the necessary security, NMNI1-IT will
           work ulth OCIO on aplan to relocate the public web sites to OClO servers using
           Intenvove~isOpen3)epluy. 'She Botany Department will begin a pilot in Septen~berthat
           should enable departments to continue to develop web sites locally, but to push t11eir
           content to a more sccurc location for public hosting.

           Tnrget Con~pIetionDate: June 30,2005

           Hecommendation 9: Keview operating system confiy a t i o n s in Willdows servers' to
           ensure they are securely configured to OCIO and industry standards.

           Comment: Concur. In conjunction with Recon~mendation#6, NMNiI will review
Appendix C. Management Comments (Continued)




           Windows-based server and takc steps to securely configure the servers to OClO and
           industry standards.
           Target Completion Date: March 30,2005

           Recommendation 10: l'stablish a pmcess to ensure regular oversight of the current
           NMNI-1 practice pennitting NMNH units to establish and administcr their own servers or
           formalize a reassignn~entof these responsibilities to a unit that can cnsurc thcse systcms
           are securely configured and administered.

           Comment: Concur. NMNH will review departmental servers and determine whcthcr
           the sewers should be included in the OCIO application server consolidation project, be
           administered by the NMNH IT staff, or remain under the control of the individual
           dcparttnents with increased oversight. NMNH will ensure compliance with the IT
           Security Controls Manual whichever approach is adopted.
           Targot Completion Date: March 31,2005

           Recommendation 11: Review the IT staffing needs to ensure stafTlevels and training
           necds exist to appropriately administer NMNFI system resources.

           Comment: Concur. NMNII has nlready begun this revicw. As a result of this revicw,
           NMNH will restructure the organizations that pmvidc n'senriccs. 721e AIIP and
           Informatics groups are in the process of merging. Other realignments are under
           consideration. A review of' stailing needs and recommendations on staffing decisions
           will be provided to the Director and NMNH Executive Staff in September.

           Target Completion Date: September 30,2004
Appendix C. Management Comments (Continued)




            Recommendations to the Chief Information Officer:

            Recommendation 1: Clarify the necessity of when and where to place links to the SI
            privacy policy and copyright restrictions posted on Sl publicly accessible unit wcbsites.
            Comment: Cullcur. OCIO has drafted a technical notc that cstablishcs the requirement
            and proced~uesfor including l u h to the standard Smithsonian Institution copyright
            notice, privacy notice, and the applicabletop Smithsonian web pagc. 'I'hc Office of
            Gcneral Council and the Office of Public Affairs are reviewing the proposed guidance.

            Completio~iDate: September 30,2004

            Recommendation 2: Review the use of the file transfer protocol (FTP) and consider
            establishing a policy requiring a more secure method of file sharing.

            Comment: Concur. The Smithsonian Computer Security Manager will convene :I
            technical working group to review altcmativc ways to securely transfcr files and
            implement recommended alternative(s).

            Completion Ijnte: .lanunry 30,2005
